TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Employees Are Provided Sufficient
                   Information on Their Tax Responsibilities,
                      but Additional Actions Are Needed to
                       Detect All Noncompliant Employees



                                            May 5, 2011

                             Reference Number: 2011-10-047




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2 = Risk Circumvention of Agency Regulation or Statute




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


EMPLOYEES ARE PROVIDED                               employees who may not have timely filed or
SUFFICIENT INFORMATION ON THEIR                      timely paid their taxes.
TAX RESPONSIBILITIES, BUT                            Although the IRS developed the computer
ADDITIONAL ACTIONS ARE NEEDED TO                     application, TIGTA determined that the
DETECT ALL NONCOMPLIANT                              application was not detecting all potential
EMPLOYEES                                            noncompliance. TIGTA independently reviewed
                                                     IRS computer files over a 2-year period and
                                                     identified 133 employees who were potentially
Highlights                                           noncompliant with their taxes and were not
                                                     detected by the ETC computer application. As a
Final Report Issued on May 5, 2011                   result, no action was taken by the IRS to
                                                     analyze and address potential employee
Highlights of Reference Number: 2011-10-047          misconduct for noncompliance with tax laws.
to the Internal Revenue Service Human Capital        In addition, TIGTA determined the IRS
Officer.                                             significantly reduced the focus of the
IMPACT ON TAXPAYERS                                  ETC Program from its original mission and goals
                                                     partially based on a study it conducted showing
The Internal Revenue Service (IRS) redesigned        that IRS employees were more compliant
and centralized the Employee Tax Compliance          compared to the general taxpaying public.
(ETC) Program in Calendar Year 1995 to ensure        While TIGTA understands the IRS’s decision to
that employees are held to a high standard of        use resources as efficiently as possible, the IRS
compliance with the tax laws. The IRS has            should document this change and conduct
developed processes to educate employees on          three additional analyses to periodically
their tax responsibilities and detect employees      reevaluate the Program’s direction to ensure
who may not have timely filed or timely paid their   proper oversight of employees’ compliance with
taxes; however, not all potential employee           their tax obligations.
misconduct concerning noncompliance with tax
laws is being assessed, and additional analyses      WHAT TIGTA RECOMMENDED
are needed to periodically reevaluate the            TIGTA recommended that the IRS Human
direction of the Program. To maintain public         Capital Officer work with computer programmers
confidence in the agency trusted with                to correct the ETC computer application and
administering the Nation’s tax system, the IRS       work additional employee cases identified by
must ensure that potential misconduct                TIGTA. The IRS Human Capital Officer should
concerning noncompliance with tax laws is            also revise the goals and mission of the
identified and addressed.                            ETC Program to align with how it is currently
WHY TIGTA DID THE AUDIT                              operating and periodically conduct trend
                                                     analyses of employee tax noncompliance.
The overall objective of our audit was to
determine whether controls in the ETC Program        In response, the IRS agreed to review its
ensure that IRS employees are fulfilling their tax   computer application, work additional cases, and
obligations and employee tax compliance cases        revise the goals and mission of the
are being appropriately identified and resolved.     ETC Program. However, the IRS stated it had
                                                     no plans to develop new noncompliance
WHAT TIGTA FOUND                                     detection efforts specifically for IRS employees.
                                                     TIGTA believes it would be prudent for the IRS
The IRS Human Capital Office has taken action        to conduct trend analyses to assist in evaluating
to ensure education is available to IRS              employee noncompliance trends.
employees on their tax responsibilities and has
ensured cases of noncompliance with tax laws
are consistently resolved. The IRS has also
developed a computer application to detect
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             May 5, 2011


 MEMORANDUM FOR INTERNAL REVENUE SERVICE HUMAN CAPITAL OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Employees Are Provided Sufficient Information
                             on Their Tax Responsibilities, but Additional Actions Are Needed to
                             Detect All Noncompliant Employees (Audit # 201010019)

 This report presents the results of our review to determine whether controls in the Employee Tax
 Compliance Program ensure that Internal Revenue Service employees are fulfilling their tax
 obligations and employee tax compliance cases are being appropriately identified and resolved.
 This audit was conducted as part of the Treasury Inspector General for Tax Administration Fiscal
 Year 2011 Annual Audit Plan and addresses the major management challenge of Tax
 Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.
                                  Employees Are Provided Sufficient Information on
                                  Their Tax Responsibilities, but Additional Actions
                                  Are Needed to Detect All Noncompliant Employees




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Controls Were Developed to Ensure Employees Are
          Aware of Their Tax Obligations and Cases of
          Noncompliance With Tax Laws Were Consistently
          Resolved ........................................................................................................ Page 4
          Computer Applications Are Not Identifying All
          Employees Who Are Potentially Noncompliant With
          Tax Laws ....................................................................................................... Page 6
                    Recommendations 1 and 2: .............................................. Page 8

          The Direction of the Employee Tax Compliance Program
          Has Changed, but It Should Be Periodically Assessed for
          New Trends ................................................................................................... Page 9
                    Recommendation 3:........................................................ Page 12

                    Recommendation 4:........................................................ Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Outcome Measure ................................................................ Page 18
          Appendix V – Employee Tax Compliance Program Statistics ..................... Page 19
          Appendix VI – Management’s Response to the Draft Report ...................... Page 22
      Employees Are Provided Sufficient Information on
      Their Tax Responsibilities, but Additional Actions
      Are Needed to Detect All Noncompliant Employees




                Abbreviations

ETC       Employee Tax Compliance
IRS       Internal Revenue Service
                        Employees Are Provided Sufficient Information on
                        Their Tax Responsibilities, but Additional Actions
                        Are Needed to Detect All Noncompliant Employees




                                       Background

In Calendar Year 2010, members of Congress and the press expressed concern with the number
of Federal Government employees who are behind in paying their taxes. According to a
December 2009 Internal Revenue Service (IRS) report, more than 97,000 Federal employees
were behind in paying their taxes. This prompted Congress to introduce a bill that proposed to
remove all Federal employees who were seriously behind on their taxes. As the agency of the
Federal Government whose chief mission is to assist taxpayers in meeting their tax
responsibilities and enforce tax laws with integrity and fairness, it is particularly important the
IRS ensures that its own employees are compliant with the tax laws.
The IRS redesigned and centralized the Employee Tax Compliance (ETC) Program in
Calendar Year 1995 to ensure that employees are held to a high standard of compliance with the
tax laws and to appropriately address conduct issues that arise when employees do not fulfill
their tax obligations. The ETC Program is administered by the IRS Human Capital Office and is
the primary means for ensuring IRS employees fulfill their tax obligations and for addressing
employees who are noncompliant.
The ETC Program is administered through two separate offices, the ETC Program Office and the
ETC Branch.
   •   The ETC Program Office was designed to coordinate and interact with all IRS business
       units to address employee tax compliance issues. It was also formed to identify trends
       and issues to proactively address noncompliance; orient, educate, and assist employees in
       complying with the tax laws; ensure consistency in the treatment of employee tax
       compliance; and protect employee privacy by restricting access to tax information.
   •   The ETC Branch is a centralized unit of IRS employees who are responsible for
       researching whether potential noncompliance exists. It is designed to provide
       consistency, protect employee privacy by restricting access to the minimum number of
       people necessary to address employee noncompliance with the tax law, and conserve
       resources by involving the minimum number of people needed to review tax issues.
Most noncompliance cases are identified by a computer application that matches IRS employee
payroll records and the tax account records maintained for all taxpayers. The computer
application will identify (but is not limited to) instances when an employee potentially did not
file a Federal tax return, did not file a tax return timely, did not pay tax owed when due, or




                                                                                             Page 1
                            Employees Are Provided Sufficient Information on
                            Their Tax Responsibilities, but Additional Actions
                            Are Needed to Detect All Noncompliant Employees



understated his or her tax liability. Since Program Year1 2004, the ETC computer application
has annually identified more than 8,000 potential noncompliance cases. Each of these cases
required further review and analyses to assess whether the employee was actually noncompliant
and whether disciplinary action was warranted. In the end, ETC reports show that about
3 percent of IRS employees are noncompliant each program year. Appendix V provides further
statistics regarding the ETC Program, including the type of noncompliance cases that were
identified by the IRS computer application for Program Years 2004 through 2008, their outcome
based on the research performed by ETC Branch staff, and the percentage of IRS employees
identified as being noncompliant with the tax law by program year.2
Employee tax issues can also originate through IRS examinations of tax returns, Treasury
Inspector General for Tax Administration investigations of IRS employees, special projects, or
self-disclosure by an IRS employee. Issues surfaced through these sources may include other
types of noncompliance than that identified by the ETC computer application. Information from
all of these sources is input to a database maintained by the ETC Branch so that it can review
potential tax issues.
When reviewing and analyzing potential noncompliance, technicians in the ETC Branch use a
workflow guide to ensure that potential noncompliance cases are worked correctly and
consistently. Tax account information is reviewed to assess whether a potential tax
noncompliance problem exists and to eliminate instances where employee noncompliance has
not occurred, involves a minor/technical error within selected tolerances, or the noncompliance
issue has already been addressed by IRS management. For the remaining cases, employees are
contacted by letter and provided a chance to explain the potential noncompliance issue and
provide perspective. In some instances, information is provided that resolves the issue and the
case is closed without any further action. Issues that cannot be resolved or closed are referred to
the employee’s local management through the IRS Human Capital Office’s Workforce Relations
Division for further evaluation and administrative action.
Administrative disciplinary actions for tax noncompliance range from oral counseling to
suspension or even removal, depending on the severity of the noncompliance and whether there
have been repeated or multiple issues. The employee’s immediate manager is responsible for
interviewing the employee to determine whether disciplinary action is warranted and, if so, the

1
  The ETC Branch works cases on a program year basis which runs from July 15th to July 14th of the following year.
During this time period, all employees with potential noncompliance issues are identified and placed into the
ETC database and then worked by the ETC Branch staff.
2
  The ETC Branch gathers information and makes an assessment on whether noncompliance exists. The preliminary
determination on whether noncompliance exists and whether disciplinary action is warranted is made by the
IRS employee’s manager and second-level manager in consultation with the IRS Labor Relations function. The
final determination is made by a senior manager unless it is a Section 1203 violation. Because the discipline for a
willful violation of Section 1203 is removal, only the IRS Commissioner can mitigate the penalty to something
lesser than removal.
                                                                                                           Page 2
                            Employees Are Provided Sufficient Information on
                            Their Tax Responsibilities, but Additional Actions
                            Are Needed to Detect All Noncompliant Employees



appropriate discipline to be taken within guidelines set forth in the IRS Penalty Determination
Handbook. Managers may also seek advice from an IRS Labor Relations office, which is
responsible for ensuring consistency in penalty actions by using similar cases as a guideline in
addition to the Penalty Determination Handbook. The proposed disciplinary action must be
approved by the employee’s second-level manager, as well as a senior manager who is
responsible for making the final determination on the appropriate action unless it is a
Section 1203 violation.3 Because the discipline for a willful violation of Section 1203 is
removal, only the IRS Commissioner can mitigate the penalty to something lesser than removal.
This review was performed in the IRS Human Capital Office, Workforce Relations Division,
Employee Conduct and Compliance function in Washington, D.C., and the ETC Branch in
Cincinnati, Ohio, during the period March through November 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




3
  In Section 1203, the IRS Restructuring and Reform Act of 1998 (Pub. L. No. 105-206, 112 Stat. 685 (codified as
amended in scattered sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C.,
31 U.S.C., 38 U.S.C., and 49 U.S.C.) specified that any IRS employee determined to have willfully failed to file any
required Federal tax return or willfully understated a tax liability must be terminated from employment with the IRS.
                                                                                                            Page 3
                               Employees Are Provided Sufficient Information on
                               Their Tax Responsibilities, but Additional Actions
                               Are Needed to Detect All Noncompliant Employees




                                         Results of Review

The IRS has established the necessary processes to educate employees on their tax
responsibilities. The IRS Human Capital Office educates employees through a variety of
methods, including developing educational tools and creating an internal web site to keep
employees informed of their responsibilities. In addition, our analysis concluded that once
potential noncompliance is identified, the IRS Human Capital Office has established a process
which addresses and resolves employee noncompliance consistently.
Although the IRS developed a computer application that is designed to detect employees who
may not have timely filed or paid their taxes or who have understated their tax liability, we
determined that the application was not detecting all potential noncompliance. We
independently attempted to identify potential employee tax noncompliance and identified some
noncompliance issues that were not detected by the ETC computer application. In
Tax Years 2006 and 2007, we identified 133 employees who were potentially noncompliant with
their taxes according to the IRS Master File4 and were not detected by the ETC computer
application. As a result, no action was taken by the IRS to analyze and address potential
employee misconduct for noncompliance with tax laws.
In addition, we determined the IRS significantly reduced the focus of the ETC Program from its
original mission and goals partially based on a study it conducted showing that IRS employees
were more compliant compared to the general taxpaying public. While we understand the
IRS’s decision to use resources as efficiently as possible, the IRS should document this change
and conduct additional analyses to periodically reevaluate the Program’s direction to ensure
proper oversight of employees’ compliance with their tax obligations.

Controls Were Developed to Ensure Employees Are Aware of Their
Tax Obligations and Cases of Noncompliance With Tax Laws Were
Consistently Resolved
Educating employees on their tax responsibilities and administering the appropriate discipline
when employees do not meet those obligations are key components of the ETC Program. The
IRS implemented these components by ensuring that 1) education is available to IRS employees
on their tax responsibilities and 2) processes were implemented to ensure employees who were
potentially identified as noncompliant had their issues resolved fairly and consistently.



4
    The IRS database that maintains transactions or records of individual tax accounts.
                                                                                          Page 4
                    Employees Are Provided Sufficient Information on
                    Their Tax Responsibilities, but Additional Actions
                    Are Needed to Detect All Noncompliant Employees



•   The IRS Human Capital Office takes sufficient actions to ensure that employees are
    aware of their tax responsibilities. Educational efforts to help employees meet their tax
    obligations are important because they enable the IRS to proactively stop employee
    noncompliance before it begins. The Workforce Relations Division within the
    IRS Human Capital Office has developed sessions for IRS leadership conferences, new
    employee orientations, and workshops to ensure employees are aware of their
    responsibility to fulfill their tax obligations. Several educational tools were also
    developed to facilitate these sessions, including an All Employee Guide and two slide
    presentation files for employees and managers.
    The ETC Program Manager also identifies tax information employees should know about
    and works with an IRS Internal Communications specialist to put information and
    resources on an internal ETC web site to help IRS employees stay compliant. The
    ETC web site has information about how the ETC Program works, as well as what
    employees should do if they are contacted by the ETC Program. It includes ETC videos
    about life events and circumstances that could change an employee’s tax situation, such
    as an early withdrawal from a retirement savings account, forgiven credit card debt, and a
    change in marital status. There is also a yearly email signed by the IRS Human Capital
    Officer which is sent to employees to remind them to file and pay their taxes accurately
    and on time. In February 2010, the IRS Human Capital Officer issued a memorandum to
    all IRS employees advising them where they could get help electronically filing their
    returns free of charge using commercial tax preparation software or through the
    IRS Employee e-File Program, a free electronic tax filing service available to
    IRS employees.
•   IRS processes provide reasonable assurance that employees with tax compliance
    issues are treated fairly and consistently within prescribed guidelines. We reviewed
    a statistical sample of 94 closed cases from the ETC database to determine whether
    outcomes or admonishments had been administered within the guidelines of the
    ETC Program’s Workflow Guide, the
    ETC Branch Guidelines for Closing/Referring
                                                             Our review of closed cases
    Cases, and the IRS Penalty Determination                   found the ETC Program
    Handbook. Our review showed that the cases                   processed cases of
    were being consistently processed to ensure that          employee noncompliance
    conduct which is inconsistent with the mission of        with tax laws consistently.
    the IRS is not tolerated.




                                                                                       Page 5
                              Employees Are Provided Sufficient Information on
                              Their Tax Responsibilities, but Additional Actions
                              Are Needed to Detect All Noncompliant Employees



Computer Applications Are Not Identifying All Employees Who Are
Potentially Noncompliant With Tax Laws
The ETC computer application developed by the IRS Modernization and Information
Technology Services organization is not identifying all potential misconduct by IRS employees
who may have not timely filed or paid their taxes or who have been assessed tax penalties for
noncompliance with the tax laws. We conducted an independent analysis of the IRS’s tax
returns database and employee files. Based on our independent analysis, we identified IRS
employees who had potentially been noncompliant with the tax law and were not identified by
the IRS computer application.
We identified an additional 69 employees in Tax Year 2006 and 64 employees in Tax Year 2007
who were noncompliant with their tax obligations, yet were not identified by the matching
application. As a result, these employees were not reviewed by the ETC Program for possible
administrative disciplinary actions. While this is a small number of employees compared to the
approximately 8,000 cases the ETC Branch works each year, it is important that the IRS strive to
identify and appropriately address noncompliance with the tax laws by all of its employees. If
all cases are not identified and addressed, the employee noncompliance rate5 that the IRS uses to
evaluate its efforts will be inaccurate.
Figure 1 shows that the IRS computer application was unable to appropriately identify a variety
of noncompliance issues.




5
    See Appendix V for additional information.
                                                                                          Page 6
                         Employees Are Provided Sufficient Information on
                         Their Tax Responsibilities, but Additional Actions
                         Are Needed to Detect All Noncompliant Employees



       Figure 1: Noncompliant Employees Not Identified by the ETC Program

                                                           Tax Year 2006         Tax Year 2007
                                                             Number of              Number of
                         Tax Issue
                                                             Employees              Employees
                      Filed return late                         **1**                 **1**
                       Paid taxes late                           **1**                 **1**
               Accounts receivable balance                       **1**                 **1**
               Additional tax assessment due                     **1**
                                                                                       **1**
              to income that was not reported
                Criminal investigation with                      **1**
                                                                                        **1**
                 additional tax assessment
             Total employees identified with
              potential noncompliance that
                                                                  69                     64
               were not identified by the
              IRS’s computer application6
       Source: Treasury Inspector General for Tax Administration analysis of IRS employees’
       tax account data.

The inability of the computer matching application to identify all potential misconduct by
IRS employees for noncompliance with taxes means that some employees may not be
appropriately identified for possible administrative action. As the agency of the Federal
Government whose chief mission is to administer the Federal tax system, IRS employees are
particularly expected to comply with all tax laws. The IRS risks an erosion of public confidence
in the American voluntary tax system if it does not appropriately address employees who are not
complying with their tax obligations. To maintain this confidence, the IRS must ensure that all
potential noncompliance is identified and addressed in a manner that instills public confidence in
the Federal tax system.
We discussed the inability of the computer matching application to identify all employee
misconduct for potential noncompliance of taxes with representatives from both the ETC Branch
and the Modernization and Information Technology Services organization. After researching the
cases, both parties agreed that the employees should have been included in the ETC database but
the Modernization and Information Technology Services organization could not recreate the
results of the computer matching application to determine the systemic issue for the records

6
 Four employees had multiple tax issues for Tax Year 2006, ************1****************************
******1*********.
                                                                                                 Page 7
                            Employees Are Provided Sufficient Information on
                            Their Tax Responsibilities, but Additional Actions
                            Are Needed to Detect All Noncompliant Employees



being excluded. As a result, future analysis will need to be conducted to determine why the
computer matching application is not identifying all noncompliance by IRS employees and
determine what changes are necessary.

Recommendations
To ensure that all cases involving potentially noncompliant employees are identified and
resolved, the IRS Human Capital Officer should:
Recommendation 1: Review the ETC Program’s computer application with Modernization
and Information Technology Services organization programmers and make necessary changes.
        Management’s Response: The IRS agreed with this recommendation. To determine
        why the cases were not selected by the extract, the Applications Development function
        within the Modernization and Information Technology Services organization will work
        with the IRS Human Capital Office’s Workforce Relations Division to review:
             •   Requirements and issue selection criteria in the ETC extract.
             •   Potential issues that were identified by the Treasury Inspector General for Tax
                 Administration but not identified in the ETC extract.
             •   The input files for ETC processing as well as the extract application.
        At the conclusion of the review, the Applications Development function will write a
        report indicating the findings and recommended resolution for the IRS Human Capital
        Office’s action. The IRS Human Capital Office will initiate action to make program
        changes if necessary.
Recommendation 2: Work the additional 133 cases identified as part of this audit to
determine whether disciplinary action is warranted.
        Management’s Response: The IRS agreed with this recommendation. The
        ETC Branch began adding the 133 cases to the ETC database. Research of the Integrated
        Data Retrieval System7 has been completed on 105 of these cases, which either have been
        closed pre-contact or are being further worked in accordance with normal
        ETC processing. The remaining 28 cases are currently being reviewed by the
        ETC Branch. It is anticipated that all 133 cases will be closed or the ETC process
        implemented by May 18, 2011. Successfully resolving Recommendation 1 will prevent
        omissions from occurring in the future.



7
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 8
                            Employees Are Provided Sufficient Information on
                            Their Tax Responsibilities, but Additional Actions
                            Are Needed to Detect All Noncompliant Employees



The Direction of the Employee Tax Compliance Program Has
Changed, but It Should Be Periodically Assessed for New Trends
The IRS Human Capital Office established an ETC Program Office with goals to identify trends
and issues that proactively address employee noncompliance, including analyzing employee
noncompliance issues and supporting targeted enforcement actions that eventually would reduce
employee noncompliance. A committee was established to monitor and evaluate ETC-related
issues including data collection, compliance activities, ETC performance measurement, and
communications.
However, the IRS made a business decision to change the direction of the Program because it
determined that IRS employees in Tax Years 2004 and 2005 were more compliant than the
general tax filing population. Also, IRS management concluded that it could use the numerous
IRS noncompliance detection systems currently in place to identify employee noncompliance.
Management believes that it is appropriate to use the same techniques to identify IRS employee
noncompliance that are used to identify noncompliance by the general public and that further
development of compliance detection systems designed solely for IRS employee filers is not
needed or warranted.8
Consequently, the priorities of the ETC Program have evolved into a Program that focuses its
resources primarily on educating employees on their tax responsibilities and working cases of
potential noncompliance mainly identified by existing compliance detection systems used for all
taxpayers. As a result of this change in priorities,
    •    The documented goals and mission of the ETC Program are not aligned with how the IRS
         is currently operating.
    •    Trend analyses are needed to assess the future direction of the Program.

The documented mission and goals of the ETC Program are not aligned with its
current activities
Government agencies should have controls in place to ensure that a program meets its objectives.
However, the IRS made a significant change in the ETC Program without revising the mission
and goals of the Program. Without clearly documented mission and goals, it is not possible to
measure objectively whether the Program is operating effectively or efficiently.



8
  For example, some noncompliance issues, such as unreported income, are identified by processes which match
transactions reported by third parties (e.g., employers) with transactions reported on the tax return (e.g., wages).
Other processes, such as the Discriminate Function, score tax returns for examination potential. Examinations and
criminal investigations of tax returns are also conducted, which may require the inspection of taxpayer records by an
IRS employee. These techniques are designed to uncover inappropriate deductions, fraudulent filings, etc.
                                                                                                             Page 9
                           Employees Are Provided Sufficient Information on
                           Their Tax Responsibilities, but Additional Actions
                           Are Needed to Detect All Noncompliant Employees



The IRS Human Capital Office created an ETC Program Manager position with the
responsibility to incorporate employee education, noncompliance detection, and noncompliance
administrative actions into the ETC Program Office. The
Program Manager was also tasked with coordinating the         The IRS made a significant
activities of an ETC data analysis group, which was            change to the focus of the
supposed to be established to analyze employee               ETC Program. However, it did
compliance issues for targeting enforcement actions9 and      not document the change in
building strategies for reducing employee                      mission or goals, which is
                                                                important for objectively
noncompliance. The IRS also established an                      measuring the Program.
ETC Committee to monitor and evaluate ETC-related
issues.
Since the establishment of the ETC Program Office, the ETC Program Manager’s job has
evolved into activities that are focused almost exclusively on making employees aware of their
tax responsibilities and educating them on the processes used by the ETC Program for addressing
tax compliance issues. While some data analysis was provided by another business unit in the
past, a dedicated ETC data analysis group was never established, and no alternative process was
established to regularly analyze noncompliance issues or provide data to support targeted
enforcement actions. In addition, the ETC Committee no longer meets. While we understand
the IRS’s change in direction, the goals and mission of the ETC Program should be updated.

Trend analyses could help assess the future direction of the ETC Program
The lack of a data analysis group and an ETC Committee reduced the IRS’s capability to analyze
employee data and address employee noncompliance issues proactively. One function of the
ETC Committee was to serve as a clearinghouse for proposed noncompliance detection projects
by reviewing and evaluating them before forwarding them to the IRS 1203 Review Board for
approval.10 When the ETC Committee was active, it contained different IRS managers who were
in favor of proactively identifying employee noncompliance. In fact, the ETC Committee
submitted a project to the 1203 Review Board, but the Board rejected it because in its opinion the
expected results did not justify the expenditure of examination resources. Since the
1203 Review Board declined this project and the ETC Committee stopped meeting in Calendar
Year 2007, no other proactive noncompliance detection projects have been submitted to the
Board.



9
  Examples of targeted enforcement actions include enhanced noncompliance detection procedures, surfacing and
exploring noncompliance issues and trends, and early intervention to correct problems such as expeditiously
identifying and auditing employee returns suspected of participating in abusive tax avoidance transactions.
10
   The Section 1203 Review Board is responsible for evaluating the circumstances surrounding a Section 1203
violation and either making a recommendation to the IRS Commissioner for reducing the penalty for employee
misconduct or concluding that a reduction is not warranted.
                                                                                                       Page 10
                        Employees Are Provided Sufficient Information on
                        Their Tax Responsibilities, but Additional Actions
                        Are Needed to Detect All Noncompliant Employees



While we understand the IRS’s decision to use resources as efficiently as possible, by not
creating new processes to proactively identify IRS employee noncompliance with tax laws and
not designing compliance detection systems solely for IRS employees, the IRS increases the risk
that employees with knowledge of IRS processes could be noncompliant with tax laws and not
be detected. ********************************2*********************************
*******************2**********************************************************
**************************2******************
***************2*****************************
                                                                    While we understand the
*****2****. These noncompliance issues are generally
                                                                  IRS’s decision to change the
identified through the IRS’s existing enforcement              focus of the Program, we believe
programs; however, the enforcement programs may not              the IRS should conduct trend
identify or work all instances of potential                          analyses of employee
noncompliance. As a result, employee noncompliance              noncompliance   and periodically
                                                                    reevaluate its direction.
in these areas may not always be identified or addressed.
To monitor this risk, the IRS should conduct
three additional analyses that could assist the organization in periodically reevaluating its
direction for the ETC Program.
1. Periodic analyses of IRS employee noncompliance trends over multiple tax years – One
   of the reasons that IRS management provided for changing the direction of the ETC Program
   was the results of an in-depth study it conducted of IRS employee compliance with tax laws
   using Tax Years 2004 and 2005 compliance rates for employees. The study made several
   conclusions, including that IRS employees were more compliant than the general public.
   The study was scheduled to be updated for more recent tax years in Fiscal Year 2010 but was
   not updated. Not only do we believe this study should be updated periodically, we believe
   the existing method of computing employee noncompliance should be changed to align with
   the way noncompliance from the general public is computed. The employee noncompliance
   rate that is computed by the ETC Program excludes some instances where an employee was
   determined to be noncompliant but further disciplinary action was not warranted. This
   differs from the way that the IRS calculates noncompliance for the general public, which
   measures all taxpayers that do not timely file returns, make accurate reports on those returns,
   and pay the required tax voluntarily and timely. Without conducting this study periodically
   and making consistent comparisons, the IRS may not be aware of changing employee
   patterns. If compliance rates were to shift toward more noncompliance, the IRS would not
   have the detailed information to determine whether additional educational efforts or
   proactive noncompliance detection projects are needed.
2. Trend analyses of referrals received by the ETC Branch that would not have been
   identified by the ETC computer application – As noted previously, the ETC Branch
   receives some of its casework from examinations of IRS tax returns and investigations
   conducted on IRS employees, as well as employees who self report that they have been

                                                                                          Page 11
                            Employees Are Provided Sufficient Information on
                            Their Tax Responsibilities, but Additional Actions
                            Are Needed to Detect All Noncompliant Employees



     noncompliant with tax laws. Examinations are based on a review of books and records and
     can uncover more sophisticated noncompliance than that detected by some of the automated
     compliance systems the IRS uses. In addition, investigations may also reveal noncompliance
     that is not detected by the IRS’s computer systems. For example, we recently determined
     that 128 IRS employees claimed the First-Time Homebuyer Credit even though prior tax
     returns had indicated they may not be eligible.11 We have also issued additional audit reports
     regarding other deductions IRS employees were taking inappropriately.12 While these cases
     were referred to the ETC Program, none of these examples would have been automatically
     detected by the IRS’s computer systems at the time. Therefore, these cases would not have
     been worked by the ETC Branch without the referral process. Analyzing referrals and
     self-reported noncompliance by employees for trends could assist the IRS in determining
     whether additional educational efforts or proactive noncompliance detection projects are
     needed.
3. More detailed trend analyses of noncompliance identified by the ETC computer
   application – Through its Workforce Relations Division, the IRS evaluates the overall tax
   compliance of its employees by monitoring the percentage of employees who are
   noncompliant, as well as the number of tax issues associated with these employees.
   However, the evaluation does not break down the statistics any further to show the number of
   noncompliant employees by location, job series, or other factors. By breaking down
   noncompliance data further, the IRS could periodically determine whether additional targeted
   educational efforts or targeted proactive noncompliance detection projects are needed.

Recommendations
To ensure that changes in the direction of the ETC Program are clearly communicated and
documented, the IRS Human Capital Officer should:
Recommendation 3: Revise the goals and mission of the ETC Program to align with how the
Program is currently operating.
        Management’s Response: The IRS agreed with this recommendation. The
        ETC Program Manager will develop new language that aligns the mission and goals of
        the ETC Program with current operating procedures and communications.




11
   The Internal Revenue Service Faces Significant Challenges in Verifying Eligibility for the First-Time Homebuyer
Credit (Reference Number 2009-41-144, dated September 29, 2009).
12
   For example, Improvements Are Needed in the Administration of Education Credits and Reporting Requirements
for Educational Institutions (Reference Number 2009-30-141, dated September 30, 2009).
                                                                                                          Page 12
                       Employees Are Provided Sufficient Information on
                       Their Tax Responsibilities, but Additional Actions
                       Are Needed to Detect All Noncompliant Employees



To determine whether future changes are needed in the direction of the ETC Program, the
IRS Human Capital Officer should:
Recommendation 4: Conduct trend analyses of employee noncompliance with tax laws to
include, but not be limited to:
   •   Periodic analyses of employee noncompliance trends over multiple tax years.
   •   Analyses of referrals received by the ETC Branch that would not have been identified by
       the ETC computer application.
   •   More detailed analyses of noncompliance identified by the ETC computer application.
   Management’s Response: The IRS disagreed with this recommendation. The IRS feels
   that its current processes and procedures for noncompliance detection are sufficient in
   number and appropriate in scope. Accordingly, the IRS has no plans at this time to develop
   new noncompliance detection efforts specifically for IRS employees.
   Office of Audit Comment: While we understand the IRS’s decision to use resources as
   efficiently as possible by not creating new processes to proactively identify IRS employee
   noncompliance with tax laws and not designing compliance detection systems solely for
   IRS employees, the IRS is at risk that employees with knowledge of IRS processes could be
   noncompliant with tax laws and not be detected. In addition, without conducting analyses
   periodically, the IRS may not be aware of changing employee patterns.
   The intent of our recommendation was not to introduce resource-intensive or overly
   burdensome noncompliance detection analyses to the ETC Program. Instead, we believe it
   would be prudent for the IRS to periodically (e.g., annually or in some cases over multiple
   years) conduct trend analyses to determine whether employee noncompliance levels have
   increased and whether additional educational efforts or proactive noncompliance detection
   projects are needed.




                                                                                        Page 13
                            Employees Are Provided Sufficient Information on
                            Their Tax Responsibilities, but Additional Actions
                            Are Needed to Detect All Noncompliant Employees



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether controls in the ETC Program ensure that
IRS employees are fulfilling their tax obligations and employee tax compliance cases are being
appropriately identified and resolved. To accomplish this objective, we:
I.      Determined the current business results, organizational responsibility, and structure for
        the ETC Program.
        A. Determined the organizational responsibility and structure of the ETC Program.
        B. Determined how the ETC Program was identifying and monitoring noncompliance
           trends by evaluating whether data and research systems were being used to monitor
           overall compliance within the IRS filing community and whether research was being
           used to enhance noncompliance detection procedures and surface noncompliance
           issues and trends.
        C. Determined the results of the ETC Program by reviewing case closure data for
           Program Years1 2004 through 2008.
II.     Determined how IRS Human Capital Office management measures the goals and mission
        of the ETC Program.
        A. Identified the goals and objectives of the ETC Program by interviewing the
           IRS Human Capital Officer, ETC Branch Chief, ETC Program Manager, and a Labor
           Relations/Employee Relations Field Operations Branch Senior staff member and by
           reviewing applicable documentation, such as Internal Revenue Manual sections,
           Business Plans, and Business Performance Reviews.
        B. Interviewed IRS Human Capital Office management to determine the performance
           measures they use to evaluate ETC Program results.




1
 The ETC Branch works cases on a program-year basis which runs from July 15th to July 14th of the following year.
During this time period, all employees with potential noncompliance issues are identified and placed into the
ETC database and then worked by the ETC Branch staff.
                                                                                                        Page 14
                             Employees Are Provided Sufficient Information on
                             Their Tax Responsibilities, but Additional Actions
                             Are Needed to Detect All Noncompliant Employees



III.     Determined whether potential tax noncompliance by IRS employees was being identified
         and consistently resolved, if substantiated.
         A. Determined whether the ETC database was complete by matching the Treasury
            Integrated Management Information System2 file to the Individual Master File3 for
            Tax Years 2006 and 2007 to produce data on IRS employees who were potentially
            noncompliant and compared the results to the ETC database to validate that
            potentially noncompliant employees were appropriately identified. The information
            was gathered using the Treasury Inspector General for Tax Administration’s Data
            Center Warehouse. The reliability and validity of the Data Center Warehouse files
            was assessed by testing a sample of taxpayer and employee accounts and comparing
            the sample to Master File transcript information to confirm the validity of the
            information.
         B. Determined whether cases identified in the ETC database were being consistently
            resolved by generating a statistical sample of 94 closed ETC cases from the
            ETC Branch Program Year 2008 database and reviewing the case files to determine
            whether the outcomes or admonishments were administered within the guidelines of
            the ETC Workflow Guide and IRS Penalty Determination Handbook. The statistical
            sample was based on a population of 6,459 ETC cases with a 2 percent precision, a
            1 percent expected error rate, and a 95 percent confidence level. The reliability of the
            ETC database information was assessed by tracing a sample of ETC closed cases to
            the Master File.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS Human Capital Office procedures,
ETC Workflow Guide, ETC Branch Guidelines for Closing/Referring Cases, the IRS Penalty
Determination Handbook, and the IRS’s computer application designed to detect employee
noncompliance with tax laws. We evaluated these controls by interviewing management,
reviewing documentation, reviewing a statistical sample of cases to ensure they were
consistently resolved, and comparing the results of our own analysis of employee noncompliance
to the ETC database.

2
  The Treasury Integrated Management Information System contains current and separated IRS employees. Data in
this system include Personally Identifiable Information (name, address, date of birth, Social Security Number) and
IRS identification information (entrance-on-duty date, title, series, division, bargaining unit status, separation date,
etc.).
3
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                               Page 15
                      Employees Are Provided Sufficient Information on
                      Their Tax Responsibilities, but Additional Actions
                      Are Needed to Detect All Noncompliant Employees



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Marjorie A. Stephenson, Lead Auditor
Andrew J. Burns, Senior Auditor
Steve T. Myers, Senior Auditor
Michael A. McGovern, Auditor
Allison P. Meyer, Auditor
Carol A. Rowland, Auditor




                                                                                  Page 16
                     Employees Are Provided Sufficient Information on
                     Their Tax Responsibilities, but Additional Actions
                     Are Needed to Detect All Noncompliant Employees



                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Technology Officer OS:CTO
Commissioner, Small Business/Self-Employed Division SE:S
Director, Workforce Relations OS:HC:R
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Internal Revenue Service Human Capital Officer OS:HC




                                                                          Page 17
                       Employees Are Provided Sufficient Information on
                       Their Tax Responsibilities, but Additional Actions
                       Are Needed to Detect All Noncompliant Employees



                                                                                Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; 133 instances of employee noncompliance not identified
    by the ETC computer application (see page 6).

Methodology Used to Measure the Reported Benefit:
Using Treasury Inspector General for Tax Administration Data Center Warehouse files, we
created a file containing tax records of IRS employees for Tax Years 2006 and 2007. By
matching IRS employee payroll files to taxpayer account files, we were able to analyze various
indicators of noncompliance with taxes. Indicators included transaction codes, action codes, and
filing dates that exceeded return due dates. Employees that had indications of noncompliance
with taxes were then extracted from the data and added to an “employee noncompliance” file,
one for each tax year. We then matched this file to the ETC database to determine which
employees were not identified on the ETC database.
For Tax Years 2006 and 2007 respectively, 69 employees and 64 employees with tax compliance
issues were not identified by the computer application. These 133 employees meet the
requirements for being identified by the computer application and were not included in reports
showing the amount of employee noncompliance.




                                                                                         Page 18
                                 Employees Are Provided Sufficient Information on
                                 Their Tax Responsibilities, but Additional Actions
                                 Are Needed to Detect All Noncompliant Employees



                                                                                                Appendix V

          Employee Tax Compliance Program Statistics

Employee tax issues are primarily identified through a systemic approach that matches employee
payroll files with the tax account files of all taxpayers. The application is designed to identify
1) IRS employees who did not file a Federal tax return, did not file timely, did not timely pay, or
had an existing unpaid balance on their accounts and 2) employees who were assessed penalties
for failure to pay, penalties for not making sufficient estimated tax payments, or other civil
penalties.
Since Program Year1 2004, the ETC computer application has identified more than
43,000 potential noncompliance issues. Figure 1 shows the type of noncompliance that was
identified for Program Years 2004 through 2008.2
                       Figure 1: Number of Potential Noncompliance Issues
                                   (Program Years 2004–2008)

                                                 Number of Potentially Noncompliant Issues
                                             Program   Program    Program      Program       Program
                                               Year      Year       Year         Year          Year
        Type of Noncompliance                  2004      2005       2006         2007          2008       Total
           Did not file tax return             902      1,553        2,394        1,860        1,023       7,732
             Did not pay taxes                1,668     2,285        2,030        1,952        2,579      10,514
    Filed return late or paid tax due late    5,641     4,162        6,025        4,019        3,734      23,581
         Additional tax assessment             152       252           300          395          460       1,559
                   Other                        11        48            73          132          291         555
                   Totals                     8,374     8,300      10,822         8,358        8,087      43,941
Source: IRS ETC Branch.


1
  The ETC Branch works cases on a program year basis which runs from July 15th to July 14th of the following year.
During this time, all employees with potential noncompliance issues are identified, placed into the ETC database,
and worked by the ETC staff. Employees can have multiple potential noncompliance issues for multiple tax periods.
2
  The ETC Branch gathers information and makes an assessment on whether noncompliance exists. The preliminary
determination on whether noncompliance exists and whether disciplinary action is warranted is made by the
IRS employee’s manager and second-level manager in consultation with the IRS Labor Relations function. The
final determination is made by a senior manager unless it is a Section 1203 violation. Because the discipline for a
willful violation of Section 1203 is removal, only the IRS Commissioner can mitigate the penalty to something
lesser than removal.
                                                                                                         Page 19
                            Employees Are Provided Sufficient Information on
                            Their Tax Responsibilities, but Additional Actions
                            Are Needed to Detect All Noncompliant Employees



Figure 2 describes the outcomes of the cases for Program Years 2004 through 2008 based on the
research performed by ETC Branch staff.
                                Figure 2: Outcome of Employee Issues
                                      (Program Years 2004–2008)
                                                            Program Year
                 Outcome                 2004       2005       2006       2007        20083        Total
                            4
              Noncompliant               2,850      2,914      3,172      2,995       3,242        15,173
                                 5
           No Action Warranted           5,524      5,386      7,650      5,363       4,839        28,762
                   Total                 8,374      8,300     10,822      8,358       8,081        43,935
      Source: IRS ETC Branch.

The percentage of employees identified as noncompliant by the ETC Branch is a measure used
by the IRS Human Capital Office to monitor the ETC Program. The IRS uses this information to
determine differences in compliance rates between IRS employees and the general public. The
IRS evaluates the overall tax compliance of its employees by monitoring the percentage of
employees identified as being noncompliant, as well as the number of tax issues associated with
the employees’ noncompliance. Figure 3 shows that the percentage of IRS employees identified
as noncompliant has remained relatively steady for the last several program years.




3
  As of November 23, 2010, six cases remain open for Program Year 2008.
4
  The ETC Branch gathers information and makes an assessment on whether noncompliance exists. The preliminary
determination on whether noncompliance exists and whether disciplinary action is warranted is made by the
IRS employee’s manager and second-level manager in consultation with the IRS Labor Relations function. The
final determination is made by a senior manager unless it is a Section 1203 violation. Because the discipline for a
willful violation of Section 1203 is removal, only the IRS Commissioner can mitigate the penalty to something
lesser than removal.
5
  “No Action Warranted” refers to cases that were reviewed by ETC Branch staff and closed after research. This
includes cases where the employee no longer works for the IRS, cases where employees sent a response to the
ETC Branch explaining circumstances that warrant no further action by IRS management, and cases where the IRS
determined the employee was compliant with all tax obligations. The measure used by the ETC Branch to monitor
employee noncompliance includes instances where employees were noncompliant, but circumstances warranted no
further disciplinary action on the part of IRS management.
                                                                                                           Page 20
                            Employees Are Provided Sufficient Information on
                            Their Tax Responsibilities, but Additional Actions
                            Are Needed to Detect All Noncompliant Employees



          Figure 3: Percentage of IRS Employees Identified as Noncompliant
                     With the Tax Law (Program Years 2004–2008)

                                                                Percentage of
                               Program          IRS            Employees With
                                 Year        Population        Noncompliance6
                                 2004          103,961               2.74%
                                 2005          108,001               2.70%
                                 2006          105,443               3.00%
                                 2007          107,160               2.80%
                                 2008          109,469               2.79%
                             Source: IRS Workforce Relations Operational Review
                             Report as of October 1, 2010.




6
  The actual percentage of noncompliant employees will be less because the percentage calculation is based on
issues, not employees.
                                                                                                         Page 21
       Employees Are Provided Sufficient Information on
       Their Tax Responsibilities, but Additional Actions
       Are Needed to Detect All Noncompliant Employees



                                                   Appendix VI

Management’s Response to the Draft Report




                                                            Page 22
Employees Are Provided Sufficient Information on
Their Tax Responsibilities, but Additional Actions
Are Needed to Detect All Noncompliant Employees




                                                     Page 23
Employees Are Provided Sufficient Information on
Their Tax Responsibilities, but Additional Actions
Are Needed to Detect All Noncompliant Employees




                                                     Page 24
Employees Are Provided Sufficient Information on
Their Tax Responsibilities, but Additional Actions
Are Needed to Detect All Noncompliant Employees




                                                     Page 25
